     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region V
                                                                          233 North Michigan Avenue
                                                                          Suite 1360
                                                                          Chicago, IL 60601
February 7, 2011

Report Number: A-05-10-00063

Mr. Douglas E. Lumpkin
Director
The Ohio Department of Job and Family Services
30 E. Broad St.
Columbus, OH 43215

Dear Mr. Lumpkin:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Ohio’s Payment Error Rate Measurement
Corrective Action Plan. We will forward a copy of this report to the HHS action official noted
below.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please direct them to the HHS action
official. Please refer to report number A-05-10-00063 in all correspondence.

                                             Sincerely,



                                             /James C. Cox/
                                             Regional Inspector General
                                               for Audit Services

Enclosure

HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
          OFFICE OF
     INSPECTOR GENERAL




     REVIEW OF OHIO’S
   PAYMENT ERROR RATE
      MEASUREMENT
  CORRECTIVE ACTION PLAN




                      Daniel R. Levinson
                       Inspector General

                        February 2011
                        A-05-10-00063
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                            Notices


       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that
OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable,
a recommendation for the disallowance of costs incurred or claimed,
and any other conclusions and recommendations in this report represent
the findings and opinions of OAS. Authorized officials of the HHS
operating divisions will make final determination on these matters.
                                             INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act, the Medicaid program provides medical
assistance to low-income individuals and individuals with disabilities. The Federal and State
Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. In Ohio, the Department of Job and Family
Services (State agency) is responsible for administering the Medicaid program.

Improper Payments Information Act of 2002

The Improper Payments Information Act of 2002 1 (IPIA), P.L. No. 107-300, requires the head of
a Federal agency with any program or activity that may be susceptible to significant improper
payments to report to Congress the agency’s estimates of the improper payments. In addition,
for any program activity with estimated improper payments exceeding $10 million, the agency
must report to Congress the actions that the agency is taking to reduce those payments. Pursuant
to section 2(f) of the IPIA, the Director of the Office of Management and Budget (OMB) has
issued guidance on implementing IPIA requirements.

Improper Payments Information Act of 2002 Implementation Guidance

Unless a written waiver is obtained from OMB, OMB Circular A-123, Appendix C requires an
agency to:

          Review all programs and activities and identify those which are susceptible to
          significant erroneous payments. . . . Obtain a statistically valid estimate of the
          annual amount of improper payments in programs and activities. . . . Implement a
          plan to reduce erroneous payments. . . . [and] Report estimates of the annual
          amount of improper payments in programs and activities and progress in reducing
          them.

OMB identified the Medicaid program and the Children’s Health Insurance Program (CHIP) as
programs at risk for significant erroneous payments. OMB requires the Department of Health
and Human Services (HHS) to report the estimated amount of improper payments for each
program annually in its accountability report.




1
    The Improper Payments Elimination and Recovery Act of 2010 (IPERA) superseded the IPIA.



                                                       1
Payment Error Rate Measurement Program

CMS developed the Payment Error Rate Measurement (PERM) program to comply with IPIA
and OMB requirements for measuring improper Medicaid and CHIP payments. CMS intended
for the PERM program to measure improper payments made in Medicaid’s fee-for-service (FFS)
component in FY 2006 and to measure improper payments made in the FFS, managed care, and
eligibility components of Medicaid and CHIP in FY 2007 and future years.

In August 2008, CMS issued its 2006 Medicaid FFS PERM report for Ohio. The report
contained a detailed analysis of the Ohio Medicaid FFS component payment error rate for FY
2006 Medicaid claims. In this report, the most common errors found were medical necessity,
insufficient documentation, and policy violations.

Federal Regulations

Federal regulations at 42 CFR § 431.950, requires States to submit information necessary to
enable the Secretary to produce national improper payment estimates for Medicaid and CHIP. In
addition, IPIA requires a State to report on what actions it will take to reduce improper
payments.

Federal regulations at 42 CFR§ 431.992 provide that “The State agency must submit to CMS a
corrective action plan to reduce improper payments in its Medicaid and [CHIP] programs based
on its analysis of the error causes in the FFS, managed care, and eligibility components.”

Pursuant to CMS’s interim final rule on Payment Error Rate Measurement, a State’s corrective
action plan format should include the following: data analysis, program analysis, corrective
actions, implementation and monitoring and evaluation. 71 Fed. Reg. 51050, 51071 (Aug. 28,
2006).

Ohio’s Corrective Action Plan

In February 2009, the State agency submitted its corrective action plan in response to the 2006
PERM report. The corrective action plan contained three detailed sections based on the major
sources of errors identified in the CMS report: medical necessity, insufficient documentation,
and policy violations. The State’s corrective action plan consisted of educating providers and
reviewing its programs as follows:

   •   educate providers through newsletters and an outreach program;

   •   conduct a precertification review program;

   •   perform an inpatient retrospective review program;

   •   add to the training packet, a list of requirements for prescriptions and clarify rule
       regarding oral transmission of a prescription;




                                                 2
   •    review rules related to prescriptions;

   •    educate providers on State policy for documentation required;

   •    educate providers on the use of modifiers, units, and required documentation;

   •    offer additional education of providers by the Case Management agency; and

   •    conduct quarterly reviews of documentation and claims.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the State submitted corrective action plans for PERM
results in accordance with Federal regulations and implemented corrective actions as stipulated
in its approved corrective action plan.

Scope

Our review related to the State agency’s corrective action plan addressing the findings disclosed
in CMS’s FY 2006 Medicaid FFS Component Final Annual Error Rate Report. We reviewed the
State agency’s corrective action plan and the implementation of corrective actions performed
during calendar year 2009.

We did not review the State agency’s overall internal control structure for the Medicaid program.
We limited our internal control review to obtaining an understanding of the State agency’s
implementation of its PERM corrective actions.

We performed our field work at the State agency in Columbus, Ohio.

Methodology

To accomplish our objectives, we:

   •    reviewed Federal regulations related to PERM,

   •    interviewed State agency officials to obtain an understanding of their role in the PERM
        process and the implementation of the PERM corrective actions, and

   •    reviewed the PERM corrective action plan and supporting documentation to determine
        whether the State agency implemented the corrective action plan.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


                                                 3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our finding and conclusion based on our audit objectives.

                                    RESULTS OF AUDIT

The State agency submitted its corrective action plan for PERM results in accordance with
Federal regulations and implemented corrective actions as stipulated in its approved corrective
action plan. As a result, this report contains no recommendations.




                                                4
